Inspection Report No. OIG-INS-26-03-02: Attendance at Agency Training
Inspection Report No. OIG-INS-26-03-02  Attendance at Agency Training
UNITED STATES GOVERNMENT
National Labor Relations Board
Office of Inspector General
Memorandum
March 3, 2003
To: Louis B. Adams,
Chief Information Officer
Thomas J. Christman, Jr.,
Director of Employee Development
From: Jane E. Altenhofen
Inspector General
Subject: Inspection Report No. OIG-INS-26-03-02: Attendance at Agency Training
We initiated this inspection to obtain statistics on the number of employees who enrolled and attended National Labor Relations Board (Agency) sponsored training.  Training is conducted by contractors and administered by the Office of Employee Development (OED) and the Information Technology Branch (ITB).  Overall, training classes we reviewed were well attended, but required documentation was not maintained.  ITB did not maintain signed or initialed rosters of attendees for all of the training sessions.  The rosters for 5 classes showed that 75 percent of enrollees attended the training sessions.  OED maintained records of enrollment and attendance rosters for retirement and customer service training, but not for legal writing seminars.  Eighteen retirement and customer service training sessions were attended by over 90 percent of enrollees.
SCOPE
We identified Agency-sponsored training for FY 2002 through interviews with training officials and by reviewing contract documents and financial data from the Financial Information Accounting System for the period of October 1, 2001 through June 30, 2002.  The Agency began using the Department of Interior National Business Center Federal Financial System (FFS) in July 2002.  The information from FFS for the period of July 1, 2002 through September 30, 2002 was not readily available when conducting our inspection.
We reviewed enrollment and attendance rosters to determine whether those that enrolled attended the classes.  There was a total of 63 training sessions provided to employees.  ITB provided 34 sessions and OED provided 29 sessions - 13 customer service, 11 legal writing, and 5 retirement.
We conducted this review in January and February 2003. The review was conducted in accordance with the Quality Standards for Inspections issued by the President's Council on Integrity and Efficiency.
BACKGROUND
Section 4103 of title 5 states that in order to assist in achieving an agency's mission and performance goals by improving employee and organizational performance, the head of each agency shall establish, operate, maintain, and evaluate a program and a plan for the training of employees.  The OED training plan included legal writing, retirement, and customer service training classes.  The portion of the OED training budget for these items in FY 2002 was $304,000.  ITB's training is developed as the year progresses and is based on Agency or office needs.   For FY 2002, ITB budgeted $190,000 for training in desktop information technology programs and applications.
The General Records Schedule for retention of training records for employee training states that correspondence, memoranda, reports, and other records relating to the availability of training and employee participation in training programs sponsored by other government agencies or non-Government institutions should be destroyed when 5 years old or when superseded or obsolete, whichever is sooner.  Application of the disposition instructions in this schedule is mandatory provided an agency has not already received disposition authority from the National Archives and Records Administration.  See, 44 U.S.C. § 3303a; 41 C.F.R. Part 1228.
INFORMATION TECHNOLOGY BRANCH
ITB announces training to employees through the Agency's electronic mail.  Those that respond are selected on a first-come, first-served basis and put on a class roster.  Other interested employees are put on an overflow roster in the event that selected employees cannot attend.  The training manager notifies those individuals when a replacement is needed.  Employees who are selected for training are asked to provide a Request, Authorization, Agreement, and Certification of Training form (SF-182).  This ensures that the supervisor is aware that the employee is scheduled to attend the class.  The SF-182 is not always given to the training manager.
Attendees should sign or initial rosters documenting their attendance.  These rosters are provided to the contractor as the basis for preparing training certificates.  Certificates are mailed to the training manager and disseminated to employees.  ITB, however, does not maintain copies of signed and initialed rosters or certificates that have been awarded.
Neither the vendor nor ITB identified all training.  ITB identified 28 training sessions, the vendor provided rosters for 20 training sessions, and the SF-182s reviewed identified 25 training sessions.  We compiled this information and concluded that there were 34 training sessions.
The information technology training by contractors for employees was at a rate of $700.00 per day for up to 12 students.  Individual training provided at vendor sites costs approximately $225 per student per day.  In-house training, therefore, is cost effective with as few as four employees.  We could not conclude whether 12 students attended the training sessions for maximum benefits because attendance rosters were incomplete and SF-182s were not always provided to the training manager.  The contractor was not required to maintain attendance rosters.  ITB did not maintain signed or initialed rosters of attendees.  We obtained signed or initialed rosters documenting attendance from the contractor for seven sessions.  For five classes we had both the original roster and documentation that employees attended.  Thirty-nine of 52 (75 percent) employees that enrolled in the 5 classes attended the training.
ITB stated that the six sessions that they did not identify might have been conducted for specific applications requested by various branches, and that rosters were not required as long as a minimum of three trainees attended.  The General Records Schedule provides no such exemption.
OFFICE OF EMPLOYEE DEVELOPMENT
OED sponsored training was selected based on office needs identified through surveys and committees.  The classes were announced through the Agency's electronic mail and all employees that responded were accepted into the classes.  Certificates were provided to attendees at the customer service training, but not for the legal writing and the retirement seminars.
OED maintained signed or initialed attendance rosters for the retirement seminar and customer service training.  Signed or initialed rosters were not maintained for legal writing classes.  For the 5 retirement seminar sessions, 205 employees enrolled and 177 (86 percent) attended both sessions. OED stated that more employees attended both days of the retirement training, but that they did not sign the roster the second day.  The 13 customer service training sessions were attended by 187 of the 188 enrollees.
SUGGESTIONS
We suggest that the Chief Information Officer and the Director of Employee Development:
Ensure rosters are maintained and verified against certificates received from vendor;
Maintain documentation of Agency training in accordance with the General Records Schedule.